HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibiity of TriSpan Health Services,"(A-05-03-00050)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of TriSpan Health
Services," (A-05-03-00050)
September 19, 2003
Complete
Text of Report is available in PDF format
(122 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent
of ineligible Medicare Skilled Nursing Facility (SNF) payments contained in our database of payments made under the administrative
responsibility of TriSpan Health Services (TriSpan).  Our review of the database estimated that $4.7 million of
ineligible SNF payments were made under the administrative responsibility of TriSpan during calendar years 1997 through
2001.  The overpayments occurred because of the absence of an automated cross-check, within the Centers for Medicare
and Medicaid Services (CMS) Common Working File and the fiscal intermediary’s claims processing systems, verifying that
a three consecutive day inpatient hospital stay occurred prior to SNF admission.  TriSpan has been advised by CMS
to suspend claim recovery actions until provided with further instructions.